No.
In the Supreme Court of the United States

LIVING ESSENTIALS, LLC; INNOVATION VENTURES, LLC,

Applicants,
v.

STATE OF WASHINGTON,

Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE A PETITION
FOR A WRIT OF CERTIORARI TO THE WASHINGTON COURT OF
APPEALS, DIVISION 1

William S. Consovoy
Counsel of Record
J. Michael Connolly
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

Counsel for Applicants

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for Washington:
Pursuant to Rule 13.5 of the Rules of this Court, Applicants Living Essentials,
LLC and Innovation Ventures, LLC move for an extension of time of 30 days, up to
and including February 3, 2020, within which to file a petition for a writ of certiorari.
1.

Applicants will seek review of the judgment in Washington v. Living

Essentials, LLC, 436 P.3d 857 (Wash. Ct. App.). A copy of the decision, dated March
18, 2019, is attached as Exhibit A. A copy of the Washington Supreme Court’s
subsequent order denying Applicants’ petition for review, dated October 3, 2019, is
attached as Exhibit B. A copy of the trial court’s decision, dated October 10, 2016, is
attached as Exhibit C. The current deadline for filing a petition for writ of certiorari
is January 2, 2020. This application is filed more than 10 days before the date the
petition is due. See Sup. Ct. R. 13.5. The jurisdiction of this Court is based on 28
U.S.C. § 1257.
2.

This case presents important questions concerning the protections

accorded to commercial speech under the First Amendment.
3.

Applicants produce and sell the well-known energy shot 5-hour

ENERGY®. Applicants regularly promote their product through a variety of print,
radio, and television advertisements throughout the country.
4.

In 2014, the State of Washington sued Applicants under the Washington

Consumer Protection Act (“CPA”), alleging that certain advertisements Applicants
ran in Washington were “unfair or deceptive acts or practices in the conduct of any

1

trade or commerce.” RCW 19.86.020. In pursuing this claim, the State dropped its
falsity claims at trial, and therefore did not attempt to prove that Applicants’
advertisements were actually false. Ex. C at 47. Instead, the State argued that
Applicants’ advertisements were “deceptive as a matter of law” because Applicants
“lack[ed] adequate substantiation evidence” that their advertisements were true. Id.
For example, the State claimed that Applicants’ “Construction Site Cowboy”
television advertisement, which conveyed that 5-hour ENERGY® was “packed with
B vitamins and nutrients to make it last” longer than coffee, was “deceptive” not
because that statement was false, but because Applicants lacked sufficient proof that
5-hour ENERGY® was superior to coffee. Id. at 14.
5.

Applicants argued that the State could not, consistent with the First

Amendment, impose liability for statements that were not alleged to be false but
merely “unsubstantiated.” Applicants also argued that they did have substantiation
for their claims, as they had commissioned literature reviews and conducted scientific
studies that supported their advertisements’ assertions about the effectiveness of
5-hour ENERGY®.
6.

The trial court sided with the State, rejecting Applicants’ First

Amendment arguments and finding Applicants liable under the CPA because there
was “insufficient scientific evidence” to support the advertisements’ claims. Id. at 53.
For example, the trial court found that Applicants’ “Construction Site Cowboy”
advertisement conveyed that 5-hour ENERGY® works better than caffeine alone, and

2

although this assertion was “certainly plausible, given the science presented to the
Court,” it “remain[ed] a hypothesis, not an established scientific fact.” Id. at 53.
7.

The Washington Court of Appeals affirmed. According to the court of

appeals, the State could prohibit Applicants’ advertisements without having to
satisfy any scrutiny under the First Amendment. Ex. B at 15-17. Because Applicants’
advertisements were “unsubstantiated,” the court of appeals concluded, they were
necessarily “misleading” and thus entitled to no protection under the First
Amendment. Id. at 16, 22 (citing Central Hudson Gas & Elec. Corp. v. Pub. Serv.
Comm’n of New York, 447 U.S. 557, 566 (1980)).
8.

Good cause exists for granting Applicants’ request for an extension of

time to file their petition for a writ of certiorari. First, an extension is warranted
because this case presents substantial and important questions involving freedom of
speech under the First Amendment. As this Court has long recognized, laws that
place the burden of truth on the speaker can lead to “self-censorship.” New York
Times Co. v. Sullivan, 376 U.S. 254, 279 (1964). That is because such laws cause
individuals to make only those statements that “steer far wider of the unlawful zone”
because of “doubt whether [their speech] can be proved in court or fear of the expense
of having to do so.” Id. Here, Applicants produced evidence that their advertisements
were true, and the State never attempted to prove that Applicants’ advertisements
were false. Yet the court of appeals held that Applicants’ speech was entitled to no
First Amendment protection—because a trier of fact believed Applicants’ speech was

3

inadequately substantiated. This conclusion was incorrect and warrants the Court’s
attention.
9.

Second, Applicants have retained new outside counsel with Supreme

Court expertise to serve as counsel of record in this Court. Additional time is
necessary and warranted for counsel to review the record in the case, research
relevant case law, and prepare a clear and concise petition for certiorari for the
Court’s review.
10.

Third, and last, Supreme Court counsel’s pending matters have affected

counsel’s availability and will continue to do so. Counsel recently has filed two
emergency applications for a stay of the mandate with this Court, see Trump, et al. v.
Mazars USA, LLP, et al., No. 19A545; Trump, et al. v. Deutsche Bank AG, et al., No.
19A640, and two petitions for a writ of certiorari on an expedited basis, see Trump v.
Vance, No. 19-635; Trump, et al. v. Mazars USA, LLP, et al., No. 19-715. A third
petition for certiorari is forthcoming. See Trump, et al. v. Deutsche Bank AG, et al.,
No. 19A640. In addition to counsel’s Supreme Court matters, counsel has a reply brief
due in the U.S. Court of Appeals for the Tenth Circuit in late December, Oklahoma
v. U.S. E.P.A., No. 19-5055 (10th Cir.); an opening brief due in the New Jersey
Superior Court, Appellate Division, on January 21, 2020, see Enriquez v. Johnson &
Johnson, et al., No. CAM-L-4677-18 (N.J. Sup. Ct. Camden Cty.); and, most likely, an
opening brief due in the U.S. Court of Appeals for the First Circuit during this time
period, see Students for Fair Admissions v. President & Fellows of Harvard, No. 192005 (1st. Cir) (briefing schedule forthcoming). An extension of time will ensure that

4

counsel’s other matters do not hinder Applicants’ ability to file an effective petition
in this case.
11.

For the foregoing reasons, Applicants hereby request that an extension

of time be granted, up to and including February 3, 2020, within which to file a
petition for writ of certiorari.

Respectfully submitted,
William S. Consovoy
Counsel of Record
J. Michael Connolly
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Applicants
December 10, 2019

5

